No.
In the
Supreme Court of the United States
Wilfredo Torres—Petitioner
vs
New York Legal Assistance Group, Respondents

Proof of Service
I, Wilfredo Torres, do swear or declare that on this date, June 21. 2021, as required by
Supreme Court, Rule 29,1 have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI, on each party to the above
proceeding or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with postage prepaid, or by delivery to a third party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
See attached List of Parties

List of Parties:
New York Legal Assistance Group
7 Hanover Square 18th. Floor
New York, N.Y. 10004
Robyn Tarnofsky, Esq.
New York Legal Assistance Group-Legal Clinic
40 Foley Square Room L122
New York, N.Y. 10007
Jill Rosenberg, Esq.
New York Legal Assistance Group
7 Hanover Square 18th. Floor
New York, N.Y. 10004
Beth Goldman, Esq.
New York Legal Assistance Group
7 Hanover Square 18th. Floor
New York, N.Y. 10004

